        AUDIT REPORT
            12-17




Audit of GPO’s Suitability Process
     for Passport Production

       September 18, 2012
Date
September 18, 2012
To
Managing Director for the Security and Intelligent Documents
Director of Security Services
Chief Human Capital Officer
From
Inspector General
Subject
Audit Report – Audit of GPO’s Suitability Process for Passport Production
Report Number 12-17

Enclosed please find the subject final report. Please refer to the “Results in Brief”
for the overall audit results. Our evaluation of your response has been
incorporated into the body of the report and the response is included in its
entirety at Appendix B.

We consider management’s comments responsive to all of the
recommendations. The recommendations are resolved and will remain open
pending our verification of the completion of the agreed upon actions.

We appreciate the courtesies extended to the audit staff. If you have any
questions or comments about this report, please do not hesitate to contact me at
(202) 512-0039.



Michael A. Raponi
Inspector General

Enclosure

cc:

Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction ............................................................................................................. 1

Results in Brief ........................................................................................................ 2

Background............................................................................................................. 4

Results and Recommendations .............................................................................. 6

Appendix A – Objectives, Scope, and Methodology ............................................... 12

Appendix B – Management’s Response ................................................................. 16

Appendix C – Status of Recommendations ............................................................ 19

Appendix D – Report Distribution ............................................................................ 20

Major Contributors .................................................................................................. 21
                        Office of Inspector General

Report Number 12-17                                     September 18, 2012


                   Audit of GPO’s Suitability Process
                        for Passport Production

Introduction

The Office of Inspector General (OIG) initiated an audit to examine GPO’s
internal processes and standards for suitability determinations of personnel that
have access to Office of Security and Intelligent Documents (SID) passport
production facilities.

GPO’s SID has produced 65 million electronic passports in Washington, D.C.
and in Mississippi. Experts agree that passport production is a critical homeland
security concern, given that possession of an American passport can help a
traveler bypass some of the stringent reviews conducted of those entering the
U.S. from abroad. Passports can also be used by individuals as identification
documents.

GPO must ensure that only trustworthy individuals have access to SID passport
production facilities. The primary means for determining whether an individual is
trustworthy is the background investigation, authorized by Executive Order
10450, “Security Requirements for Government Employment,” April 27, 1953, as
amended and 5 C.F.R. Parts 731, 732, and 736. The background investigation is
not an evaluation of the subject’s character, but is instead a determination of the
likelihood that a particular person will adhere to all security requirements in the
future.

This audit was conducted to answer the following question: “Do opportunities
exist to enhance controls over GPO’s internal processes and standards for
suitability determinations for personnel that have access to SID passport
production facilities?”

The audit fieldwork was conducted between September 2011, through March
2012, at the GPO Central Office in Washington, D.C. To achieve our objective,
we conducted interviews with key personnel security officials, human resources
employees, and senior SID officials. We reviewed related laws, regulations,
Executive orders, and GPO management directives. We reviewed SID guidelines
and procedures, and analyzed GPO personnel security documents. We sampled
73 from a total of 244 personnel who had access to the Washington D.C.
passport production facilities or who handle the passport inventory to determine if

                                         1
a suitability determinations were conducted and reinvestigations were performed
in accordance with GPO policies.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Our objective, scope,
methodology, and criteria are detailed in Appendix A

Results in Brief

SID is considered an important business unit for the future of GPO. We noted
senior managers have worked hard to foster a culture of individual accountability
to safeguard blank passports.

While senior managers are committed to mitigating risks associated with
deceptive practices associated with attempting to enter the United States or used
by those who seek to create a false identity, we believe controls over the
personnel suitability processes could further be strengthened for passport
production.

Based on our sample, we believe all 244 employees and contractors that had
access to SID passport production facilities were processed for suitability
determination. However, SID could strengthen its requirements process for
determining which positions require clearances and level of clearances.

Periodic monitoring of employees who cleared a National Agency Check with
Inquiries and Credit Check (NACIC) review is necessary. All position
descriptions for employees that have access to SID should be annotated to
reflect the sensitivity level of the position. We further noted that controls could be
strengthened to monitor the status of reinvestigations.

Generally, these conditions occurred because: (1) SID policy does not
adequately define positions requiring clearances. It states that “a limited number
of SID employees spanning all the functional areas and skill sets will obtain and
maintain Secret and Top Secret clearances”, (2) Position Description Forms are
unclear with regard to the sensitivity level, and (3) Neither GPO or SID policy
requires period monitoring

As a result, the risks for providing an avenue for potential unscrupulous activities
to take place are increased.



                                          2
Recommendations

We recommend that the Managing Director for the Security and Intelligent
Documents Unit (1) determine the proper risk level and position classification for
all employees that have access to SID passport production facilities, (2) if
needed, complete the appropriate background investigations for the classification
established.

We recommend that the Chief Human Capital Officer coordinate with the
Managing Director for the Security and Intelligent Documents Unit and annotate
position descriptions with the sensitivity level of the position.

We recommend Director of Security require employees and contractors that have
access to SID passport production facilities to inform management if they are
arrested, or charged with any offenses, with perhaps the exception of minor
traffic infractions not involving drugs or alcohol. Also, periodically monitor
cleared employees and contractors for adverse changes.

Management’s Response

GPO management concurred with the recommendations.

We consider management’s planned action responsive. The recommendations
are resolved and will remain open until planned action is complete.




                                        3
Background

Since the 1920s, GPO has been the sole provider of the United States (U.S.)
passport. GPO employees produce the passports in the U.S. at Secure
Production Facilities (SPF) in Washington, D.C. and Mississippi. GPO is
responsible for the security of blank passport production from the point at which
security paper leaves the mill, through the acquisition of additional components,
to the point at which the blank passport books are delivered to the Department of
State. Management controls over the security related to the production of blank
passports are of particular importance because travel documents, such as a
blank passports, are sometimes used deceptively in attempts to enter the United
States or used by those who seek to create a false identity. Also, as the sole
producer of blank passports in the United States, the exposure and risk for GPO
is high and could place the passport production and security document business
lines at risk.

As part of passport production security, SID employees undergo a suitability
determination. Suitability refers to identifiable character traits and conduct
sufficient to decide whether an individual is likely or not likely to be able to carry
out the duties of a job with appropriate integrity, efficiency, and effectiveness.

All positions require a risk and sensitivity designation. The highest level of risk or
sensitivity determines the type of background investigation required. SID is
responsible for designating risk levels for every competitive service position.
These determinations are based on the position’s documented duties and
responsibilities. SID is to ensure that employees or contractors have the
appropriate background investigation commensurate with the position and
subsequent reinvestigations. There are three categories of designations
applicable to SID. Each position is designated at a low, moderate, or high risk
level depending on the position’s potential for adverse impact to the efficiency
and integrity of the service. 1 The first category or low risk level positions are
non-sensitive positions involving duties and responsibilities of limited relation to
an agency or program mission, so the potential for impact on the integrity and
efficiency of the service is limited. Employees in these positions are subject to a
NACIC.

A NACIC is the basic and minimum investigation required of all new Federal
employees and contractors. It consists of searches of OPM’s Security/Suitability
Investigations Index, 2 the Defense Clearance and Investigations Index, 3 the



1 Code of Federal Regulations (C.F.R.) § 731.106.
2The Security/Suitability Investigations Index includes information from the subject, interviews of
other individuals in relation to him or her, and other sources such as databases, websites, etc., to
verify and confirm information provided by the subject.
                                                  4
Federal Bureau of Investigations Name Check, the Federal Bureau of
Investigations National Criminal History Fingerprint check, the Federal Bureau of
Investigations Terrorist Screening Database, and other files or indices when
necessary. A NACIC also includes written inquiries and searches of records
covering specific areas of an individual’s background during the past five years
(i.e., current and past employers, schools attended, references, and local law
enforcement authorities). It also includes a credit check.

The second and third categories are moderate and high risk level positions and
typically referred to as “Public Trust” positions. 4 Personnel occupying public
trust positions must undergo a minimum background investigation (MBI), a
limited background investigation (LBI), or a background investigation.5
Moderate risk positions within this category have the potential for moderate to
serious impact on the integrity and efficiency of the service because they involve
duties of considerable importance to the agency or program mission. Employees
holding moderate risk public trust positions must undergo either a MBI or LBI.
Positions considered to be high risk within this category have the potential for
exceptionally serious impact on the integrity and efficiency of the service. The
duties involved are especially critical to the agency or program mission and carry
with them a broad scope of responsibility and authority. Those in high risk public
trust positions must undergo a background investigation.

GPO requires that employees and contractors holding a security clearance who
have been employed in their jobs for certain periods of time be subject to a
reinvestigation to verify that they are still suitable for their positions.
Reinvestigation is required once every 5 years for individuals possessing a Top
Secret clearance, once every 10 years for individuals possessing a Secret
clearance, and once every 15 years for individuals in non-sensitive positions.

As of October 2011, there were 244 individuals who had access to the
Washington D.C. SPF. This number includes SID personnel; contractors; support
personnel such as Quality Control and Inventory Management and maintenance;
and personnel with “executive rights.” The Executive staff and Security Services,
which includes Physical Security and the Uniformed Police, have executive
rights, allowing them access to all areas of GPO.


3 The Defense Clearance and Investigation Index is composed of investigations conducted by
Department of Defense investigative organizations, locator references to such investigations, and
security clearances granted by Department of Defense components.
4 Public Trust positions may involve policy-making, major program responsibility, public safety and

health, law enforcement duties, fiduciary responsibilities, or other duties demanding a significant
degree of public trust.
5 A MBI covers the same areas as a NACI, but also includes a personal subject interview. In addition to

all the features of MBI, LBI includes court records verification (e.g., any felony convictions, etc.), and a
check of developed references, which are the names mentioned during an investigator’s talks with
the references provided by the person being investigated. A background investigation features the
coverage of the LBI and a check of the individual’s official personnel folder.
                                                     5
Results and Recommendations

GPO’s suitability processes are used to reduce the potential for abuse of public
trust, to ensure GPO-wide uniformity and fairness for applicants, appointees, and
employees, and to determine suitability for employment.

Based on our sample, we believe that all 244 employees and contractors that
had access to SID passport production facilities were processed for suitability
determinations. While we commend GPO on this accomplishment, we believe
management controls could further be strengthened.

A sound requirements process for determining which positions require
clearances and level of clearances is needed and a position designation should
be annotated for all positions. Previously cleared individuals should be
periodically monitored to ensure that their access to passport production facilities
remains in the best interest of GPO and national security. Furthermore, controls
could be strengthened to monitor the status of reinvestigations.

Generally, these conditions occurred because: (1) SID policy does not
adequately define positions requiring clearances. It states that “a limited number
of SID employees spanning all the functional areas and skill sets will obtain and
maintain Secret and Top Secret clearances”, (2) Position Description Forms are
unclear with regard to the sensitivity level, and (3) Neither GPO or SID policy
requires period monitoring.

As a result, the risks for providing an avenue for potential unscrupulous activities
to take place are increased.

Suitability Policies and Procedures

All federal agencies must ensure that only trustworthy individuals are hired to
work in national security or public trust positions. The primary means for
determining whether an individual is trustworthy is the background investigation,
authorized by Executive Order 10450, “Security Requirements for Government
Employment,” April 27, 1953, as amended and 5 C.F.R. Parts 731, 732, and 736.
The background investigation is not an evaluation of the subject’s character, but
is instead a determination of the likelihood that a particular person will adhere to
all security requirements in the future.

GPO Directive 825.2b, “Personnel Security Program”, dated February 25, 2010,
states that the Director, Security Programs, is responsible for maintaining an
effective personnel security program to ensure the employment and continued
employment of each person is clearly consistent with the interests of national
security or the public trust. The Director, Human Capital Operations, is
responsible for annotating the sensitivity levels of GPO positions on appropriate
personnel forms (including but not limited to the position description), and
                                         6
ensuring that no individual is permanently appointed to a sensitive position until
their suitability for such an appointment has been established in accordance with
GPO policies. The Managing Director for the Security and Intelligent Documents
Unit is responsible for determining, recording, and reporting the sensitivity level
of each position under their supervision, and that action is initiated to ascertain
the appropriate adjudication of selectees/appointees for such positions.

As a legislative branch agency, GPO is not required to follow any OMB circulars,
including Office of Management and Budget (OMB) Circular Number A-123
“Management’s Responsibility for Internal Control” or its appendixes.

OMB Circular Number A-123 requires that management controls must provide
reasonable assurance that assets are safeguarded against waste, loss,
unauthorized use, and misappropriation. Management controls developed for
agency programs should be logical, applicable, reasonably complete, and
effective and efficient in accomplishing management objectives.

A Sound Requirements Process Reduces Security Risks

A sound requirements process for determining which positions require
clearances and level of clearances is needed. The personnel security clearance
process begins when a human resources or security professional determines a
position’s level of sensitivity, which includes consideration of whether or not a
position requires access to classified information and, if required, the level of
access. Current SID policies and procedures do not appear to designate position
sensitivity or risk level in accordance with the risk criteria set forth in 5 CFR § 731
and § 732 and GPO Directive 825.2b, “Personnel Security Program”.

GAO, in a recent study, found that a sound requirements process is necessary to
“to safeguard classified data and manage costs, agencies need an effective
process to determine whether civilian positions require a clearance.” They also
found that “underdesignating positions could lead to security risks.” This is also
true when positions have no designation.

SID policy letter dated June 8, 2011, titled “SID Security Clearance Program,” to
set policy for SID personnel security clearances. The policy requires that all
passport production personnel have a suitability investigation performed. All
managers, supervisors and those in leadership roles are required to have at least
a secret Clearance. In addition, the policy requires that a limited number
selection of employees with different skill sets and in different functional areas
have a secret or top Secret clearance.

Officials believed the policy provided more flexibility and still complied with risk
criteria.



                                           7
A requirements process should include provisions for determining a position risk
level at the high, moderate, or low risk levels. The three suitability position risk
levels could be defined as follows:

   •   High Risk Positions involve duties that are especially critical to the agency
       or program mission with a broad scope of responsibility and authority,
       such as: policy-making, policy determining, and policy-implementing;
       higher level management duties and assignments, or major program
       responsibility; and independent spokespersons or non-management
       positions with authority for independent action.

   •   Moderate Risk Positions involve duties of considerable importance to the
       agency or program mission with significant program responsibility or
       delivery of service, such as: assistants to policy development and
       implementation; mid-level management duties and assignments; and
       delivery of service positions that demand public confidence or trust.

   •   Low Risk Positions involve duties and responsibilities of limited relation to
       an agency or program mission, so the potential for impact on the integrity
       and efficiency of the service is limited.

The position risk designation system described above determines the type of
investigation needed for the position. Minimum investigative requirements for the
position risk levels are:

High Risk – Background Investigation which consists of a Personal Subject
Interview; a basic National Agency Check plus credit search; personal interviews
with employment, residence, educational sources; and law enforcement
searches going back 5 years.

Moderate Risk – Limited Background Investigation (LBI) or Minimum Background
Investigation (MBI) may be conducted.

Low Risk –A credit search may be conducted in conjunction with a NACIC upon
initial entry to duty for all appointees.

Position Designation Should be Annotated for All Positions

GPO Policy requires that all Position Descriptions (PD) are annotated with a
sensitivity level.

Our review disclosed that Human Capital did not annotate some of the position
descriptions to reflect the sensitivity level of the position. We noticed that PD’s
did not include sensitivity levels for “legacy” employees. Legacy employees are
GPO employees that were transferred to SID when it was created. There were
approximately 38 legacy employees at the time of our review. The Managing
                                          8
Director of SID believes that all positions created after SID began as a separate
business unit has the required annotation.

The PD is the official record of management’s assignment of duties, knowledge,
skills, required abilities, and supervisory relationships of the position and serves
as the basis for designating suitability risk levels.

Periodic Monitoring of Cleared Employees

The favorable adjudication of a suitability determination to government or
contractor employees is only one step in the protection of blank passports.
Previously cleared individuals should be periodically monitored to ensure that
their access to passport production remains in the best interest of GPO and
national security.

Of the 73 sampled SID employees, we identified one employee and two contract
personnel with information that may impact suitability. GPO policy does not
specifically require employees to inform management if they are arrested, or
charged with any offenses, with perhaps the exception of minor traffic infractions
not involving drugs or alcohol.

Based on our sample, we estimate that there could be as many as nine instances
of possible adverse activity out of the 244 employees having access to SID
passport production facilities.

Controls Could be Strengthened to Monitor the Status of Reinvestigations

We determined that Security Services Clearance Tracking Program did not
include all employees requiring a reinvestigation. Specifically, 40 of the 244
employees having access to SID passport production facilities were not included
in the Clearance Tracking Program.

We were told that Security Services was unaware that the GPO Directive
required that employees having access to SID passport production facilities in
non-sensitive positions who do not have clearances also be reinvestigated every
15 years.

Without a sound requirements and monitoring process in place, GPO cannot be
confident that the suitability processes in place for passport production personnel
is having its intended effect.




                                          9
Recommendations

We recommend Managing Director for the Security and Intelligent Documents:

1. Update SID policy and determine the proper risk level and position
   classification for all employees that have access to SID passport production
   facilities.

2. If needed, complete the appropriate background investigations for the
   classifications established in recommendation number 1.

Management’s Response

GPO management concurred with the recommendations. The Managing
Director of SID will work with the Chief Human Capital Officer to incorporate
changes that result from a pending review of SID’s position classifications and
ensure that the position descriptions explicitly annotates any security clearance
requirements. This should be completed by December 31, 2012.

We recommend the Director of Security Services:

3. Update GPO policy to require employees and contractors that have access to
   SID passport production facilities to inform management if they are arrested,
   or charged with any offenses, with perhaps the exception of minor traffic
   infractions not involving drugs or alcohol.

4. Periodically monitor cleared employees and contractors for adverse changes.

Management’s Response.

GPO management concurred with the recommendations. The Director of
Security Services will update the GPO Directive 825.2B , “Personnel Security
Program” dated February 25, 2010, (Directive) to include self reporting
requirements for all personnel assigned to SID (and GPO personnel assigned to
support SID operations) and those having executive privileges and/or unescorted
privileges to SID operations. He will also conduct and coordinate an awareness
campaign and training events.

The Director of Security Services will initiate a new program to perform periodic
criminal checks on SID and GPO personnel assigned to support SID operations
and those having executive privileges and/or unescorted privileges to SID
operations. Every five years these designated employees or contractors will be
fingerprinted and subjected to background checks and monitoring for adverse
changes. The Directive will be updated to include this change.


                                        10
We recommend the Chief Human Capital Officer:

5. Coordinate with the Managing Director for the Security and Intelligent
   Documents Unit and annotate position descriptions with the sensitivity level of
   the position.

Management’s Response.

GPO management concurred with the recommendation. The Managing Director
of SID and the Chief Human Capital Officer will work together to review position
descriptions and associated sensitivity levels.

Evaluation of Management’s Response

Management’s planned action is responsive to the recommendations. The
recommendations are resolved and will remain open until planned action is
complete.




                                       11
Appendix A - Objectives, Scope, and Methodology

We performed fieldwork from September 2011 through March 2012 at the GPO
Central Office in Washington, D.C. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence that
will provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Objectives

This audit was conducted to answer the following question: “Do opportunities
exist to enhance controls over GPO’s internal processes and standards for
suitability determinations for personnel that have access to SID passport
production facilities?”

Scope and Methodology

To accomplish our audit objective, we performed the following:

•   Identified and reviewed Federal and Agency personnel security policies and
    procedures and the GPO Memorandum of Understanding with the U.S.
    Department of State;
•   Compared the security requirements of the Department of State MOU with
    those of the GPO passport vendor organizations;
•   Interviewed GPO management officials and other personnel responsible for
    establishing and monitoring personnel security for employees working for or
    with the SPF. The personnel interviewed included: Managing Director, SID;
    the Director of Product Security, SID; Administrative Assistant, SID; Director,
    Security Programs; Chief, Physical Security; and Personnel Security
    Specialist, Physical Security; and
•   The OIG investigative staff provided information on each selected employee
    regarding criminal activity since the date of the last clearance/background
    check/reinvestigation was complete or issued. The audit staff reviewed the
    information.




                                         12
Sampling Methodology

To test whether GPO employees were in compliance with applicable personnel
security policies and procedures, we randomly selected a sample of 73 from a
total of 244 personnel who have access to the Washington D.C. SPF or who
handle the passport inventory.

We used EZ Quant Statistical Analysis Software to support our statistical
sampling. EZ Quant Statistical Analysis Software was developed by the Defense
Contract Audit Agency and is used to generate sample sizes and random
numbers and estimates.

Parameters

Universe Size: 244
Confidence Level: 90 percent
Sample Size: 73

Precision Limits

Lower Limit: 1.2
Upper Limit: 9.3

Below is the universe and sample by GPO Business Unit.




                                      13
Universe and Sample Unit by Business Unit

    Business Unit        Employees with access to       Sample Unit
                          SID Passport Production       by Business
                         Facilities by Business Unit.       Unit
Quality Control and                    17                    8
Inventory
Uniformed Police,                     63                    25
Physical Security and
others with Executive
Rights
Bindery                                 2                    0
Building Services                       3                    0
Contractors                            13                    4
Electrical Branch                       6                    3
Engineering                             2                    0
Facilities                              2                    1
IT                                      2                    1
IT-SID                                  1                    0
Machine Branch                          3                    0
SID                                   120                   30
Plant Operations                        1                    0
Plant Operations - SID                  5                    0
Security Services                       1                    0
Testing and Technical                   1                    0
Services
Warehouse Operations                   1                    1
Warehouse Operations                   1                    0
- SID
  Total                               244                   73




                                 14
Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures the GPO management
implemented to reasonably ensure that processes met GPO’s objectives.

Validity and Reliability of Data – Policies and procedures that management has
implemented to reasonably ensure that valid and reliable data are obtained,
maintained, and fairly disclosed in reports.

Compliance with Laws and Regulations – Policies and procedures that
management has implemented to reasonably ensure that resource use is
consistent with laws and regulations.

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are contained in the
report narrative. Implementing the recommendations in this report should
improve those management control deficiencies.

Computer-generated data

We did not rely on any computer-processed data from GPO’s accounting or
security system.




                                        15
Appendix B – Management’s Response ___________________________________




                                  16
Appendix B – Management’s Response ___________________________________




                                  17
Appendix B – Management’s Response ___________________________________




                                  18
Appendix C - Status of Recommendations


Recommendation       Resolved   Unresolved     Open/ECD*      Closed
      1                 x                      12/31/2012
      2                 x                     Part 12/31/12
                                              Part unknown
                                             based on OPM
        3                x                     12/31/2012
        4                x                     12/31/2012
        5                x                     12/31/2012

*Estimated Completion Date.




                                   19
Appendix D - Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       20
Major Contributors to the Report

Vera J. Garrant, Lead Auditor
Patricia M. Bach, Senior Auditor




                                   21
